       DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                    Office of Inspector General


                                                                                   Washington, D.C. 20201




                                                  ~JAN   19 2012


TO: 	                  Marilyn Tavellller
                       Acting Administrator
                       Centers for Medicare & Medicaid Services

                                            /S/
FROM:                  Stuart WrigHt
                       Deputy Inspector General
                        for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Nationwide Program for National and State
           Background Checks for Long-Term-Care Employees -Results of
           Long-Term-Care Provider Administrator Survey, OEI-07-10-00421


The Patient Protection and Affordable Care Act (ACA) mandates that the Office of
Inspector General (OIG) submit a report to Congress evaluating the Nationwide Program
for National and State Background Checks on Direct Patient Access Employees of
Long-Term-Care Facilities and Providers not later than 180 days after the program's
completion. This memorandum report provides the results of a survey oflong-term-care
provider administrators. The purpose of the survey was to collect baseline data on
current practices regarding conducting background checks on potential employees and
the effects on the long-term-care workforce. We plan to use this information in the
mandated report to assess the effects of background checks on the availability of
long-term-care workers.

SUMMARY

Section 6201 of the ACA established the Nationwide Program for National and State
Background Checks on Direct Patient Access Employees of Long-Term-Care Facilities
and Providers. 1 This voluntary program provides grants to States, the District of
Columbia, and U.S. territories (States) to implement programs to conduct background
checks on prospective long-term-care employees, and mandates an OIG evaluation of the
State programs. ACA requires OIG to evaluate certain aspects of participating States'
programs. For example, OIG must determine the extent to which conducting background
checks leads to any unintended consequences, including a reduction in the available
workforce for long-term-care providers.



I   P.L. 111-148, enacted March 23, 2010.



OEI-07-10-00421                Results of Long-Term-Care Provider Administrator Survey
Page 2 – Marilyn Tavenner


In May 2011, we surveyed long-term-care provider administrators in participating States
about their current procedures for conducting background checks, the effects of
background checks on the pool of prospective employees, and the availability and quality
of prospective employees. Survey results indicate that 94 percent of administrators
conducted background checks on prospective employees. Only 4 percent of those
administrators encountered individuals who were unwilling to undergo a background
check. Twenty-three percent of administrators believed that their organizations’ current
background check procedures reduced the pool of prospective employees. Overall,
81 percent of administrators believed that there is a sufficient pool of qualified applicants
for job vacancies. However, survey results indicate that 9 percent of administrators did
not receive applications from qualified individuals for at least some job vacancies.

BACKGROUND

Nationwide Program for National and State Background Checks on Direct Patient
Access Employees of Long-Term-Care Facilities and Providers
Section 6201 of ACA requires the Secretary of Health and Human Services to carry out a
nationwide program in which States conduct national and State background checks of
prospective direct patient access employees of nursing facilities and other long-term-care
providers. 2 The program is administered by the Centers for Medicare & Medicaid
Services (CMS) in cooperation with the Federal Bureau of Investigation (FBI). ACA
provides up to $160 million in Federal funds for the program.

To implement the nationwide program, CMS began soliciting applications for grant
awards in June 2010. Program start dates for each participating State vary based on when
the State received a grant award. Once grants are awarded, it is expected that States may
need some preparation time before they require long-term-care providers to begin
conducting background checks. For example, States may need to set up information
systems to accommodate the background check process or enact legislation that amends
the requirements for long-term-care providers. Therefore, there may be some lag time
between the program start date and the date that long-term-care providers begin
conducting background checks. Some States had background check programs in place
before they received their grants. The grants require these States to expand or improve
their programs in some way. 3 For example, a State that had a program requiring
background checks only on employees of nursing facilities would have to expand the
program to include employees of other provider types (e.g., hospices, home health
agencies). CMS plans to make all grant awards by September 30, 2012; however, the
completion date of the program (i.e., the date that participating States deplete their grant
funds) is unknown at this time. As of October 2011, 17 States had received grants.




2
  Section 6201(a)(6)(D) defines “direct patient access employee” as any individual who has access to a patient or resident of a
long-term-care facility or provider through employment or through a contract with such facility or provider and has duties that involve
(or may involve) one-on-one contact with a patient or resident of the facility or provider, as determined by the State for purposes of
the nationwide program.
3
  CMS, Funding Opportunity Announcement for Nationwide Program for National and State Background Checks, p. 14.



OEI-07-10-00421               Results of Long-Term-Care Provider Administrator Survey
Page 3 – Marilyn Tavenner


Mandated OIG Evaluation
The ACA mandate requires OIG to submit a report to Congress evaluating the program
not later than 180 days after its completion. In July 2010, we began an evaluation
entitled Nationwide Program for National and State Background Checks for
Long-Term-Care Employees (OEI-07-10-00420). To comply with the required
timeframe, the evaluation follows the progress of the nationwide program in each State as
it is carried out, rather than conducting a retrospective review at the end of the program.

According to ACA, OIG must include the following in its evaluation:

1. A review of the various procedures implemented by participating States for
   long-term-care facilities or providers, including staffing agencies, to conduct
   background checks of prospective direct patient access employees under the
   nationwide program and identification of the most appropriate, efficient, and effective
   procedures for conducting such background checks;

2. An assessment of the costs of conducting such background checks (including startup
   and administrative costs);

3. A determination of the extent to which conducting such background checks leads to
   any unintended consequences, including a reduction in the available workforce for
   long-term-care facilities or providers;

4. An assessment of the impact of the nationwide program on reducing the number of
   incidents of neglect, abuse, and misappropriation of resident property to the extent
   practicable; and

5. An evaluation of other aspects of the nationwide program, as determined appropriate
   by the Secretary. 4

The information in this memorandum report pertains to the third issue above and will
serve as a baseline in determining the effects of background checks on long-term-care
workforce availability in the mandated report. The mandated report will also cover all
other issues listed above.

METHODOLOGY

Sample Selection
In February 2011, we obtained data for the following provider types from the Online
Survey, Certification, and Reporting (OSCAR) system: nursing facilities, skilled nursing
facilities, home health agencies, hospices, and Intermediate Care Facilities for the
Mentally Retarded (ICF/MR). As of March 2011, 10 States had been awarded funding
under the nationwide program: Alaska, California, Connecticut, Delaware, District of
Columbia, Florida, Illinois, Missouri, New Mexico, and Rhode Island. We stratified the
population of long-term-care providers by the number in each participating State to

4
    P.L. 111 148 § 6201(a)(7)(A)(ii).



OEI-07-10-00421                  Results of Long-Term-Care Provider Administrator Survey
Page 4 – Marilyn Tavenner


ensure that States with smaller numbers of providers were represented. One stratum
consisted of providers in States with 500 or fewer providers (Alaska, Delaware, District
of Columbia, New Mexico, and Rhode Island), and the other stratum consisted of
providers in States with more than 500 providers (California, Connecticut, Florida,
Illinois, and Missouri). We selected a stratified random sample of 100 providers from
each stratum. If we had not stratified the population, the sample would likely not have
included providers from each of the 10 States. Table 1 shows the number of providers in
the population and sample by stratum and State.

Table 1: Number of Providers in Population and Sample by
Stratum and State
                                      Providers in   Providers in
 Stratum       State
                                       Population        Sample

               Alaska                           89              4

               Delaware                        157              8

 1             District of Columbia            330             21

               New Mexico                      489             33

               Rhode Island                    450             34

 Stratum 1 Total                             1,515            100

               California                    6,200             40

               Connecticut                     932              4

 2             Florida                       3,399             23

               Illinois                      3,534             22

               Missouri                      2,065             11

 Stratum 2 Total                            16,130            100

           Overall Total                    17,645            200

Source: OSCAR database, 2011.



Our population of long-term-care providers included only those that were in operation at
the time of our data collection. In May 2011, we mailed a survey to the administrators of
the sampled providers. We asked about their current procedures for conducting
background checks on prospective employees and whether they believe that their
background check procedures reduce the pool of prospective employees. We requested
workforce data on the number of applicants and the number of persons hired for recently
filled positions, if available. Finally, we solicited administrators’ opinions regarding the
availability and quality of long-term-care applicants. We did not independently validate
the survey responses.




OEI-07-10-00421              Results of Long-Term-Care Provider Administrator Survey
Page 5 – Marilyn Tavenner


Response Rate
We received responses from 153 sampled providers. We determined that the remaining
47 sampled providers were no longer in operation through telephone contact attempts and
Internet searches. Therefore, we received responses from 100 percent of providers that
were eligible to respond to the survey. Table 2 shows the number of responses for each
provider type in each State by stratum.
Table 2: Number of Eligible Sample Responses by Stratum, State, and Provider Type
                                Nursing
                               Facilities/
                                           Home Health
 Stratum   State                 Skilled                  Hospices     ICF/MRs                                                        Total
                                             Agencies
                                Nursing
                               Facilities
                  Alaska                                   0                       1                   3                 0                4

                  Delaware                                 4                       3                   0                 0                7

 1                District of Columbia                     5                       2                   0                 9               16

                  New Mexico                               7                       9                   4                 3               23

                  Rhode Island                            13                       4                   1                 7               25

                  California                              12                      10                   2                 6               30

                  Connecticut                              1                       2                   0                 0                3

 2                Florida                                  7                      12                   0                 0               19

                  Illinois                                 7                       4                   0                 4               15

                  Missouri                                 9                       1                   1                 0               11

                  Total                                   65                      48                 11                 29              153

Source: Administrator responses to OIG survey, 2011.



Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.


RESULTS

Current Background Check Procedures
Ninety-four percent of administrators in the 10 participating States conducted background
checks on prospective employees. 5 Of the administrators who conducted background
checks, 82 percent conducted a State criminal history check, 41 percent conducted an FBI
criminal history check, and 63 percent used other sources, such as sex offender registries

5
  Appendix A presents point estimates and 95-percent confidence intervals for all population estimates. We projected our results to
the population of long-term-care providers in operation at the time of our data collection.



OEI-07-10-00421                Results of Long-Term-Care Provider Administrator Survey
Page 6 – Marilyn Tavenner


and the OIG List of Excluded Individuals/Entities. Of the administrators who conducted
background checks, 95 percent conducted them for all prospective employees, while
5 percent conducted them only for certain positions.

The information reported by administrators for this survey is consistent with information
reported by nursing facility administrators for a survey we conducted in June 2009 for the
report entitled Nursing Facilities’ Employment of Individuals With Criminal Convictions
(OEI-07-09-00110). That report found that 98 percent of nursing facilities conducted
some type of background check on prospective employees. We note that the statistics
from both surveys suggest that because most long-term-care providers were already
conducting background checks prior to the implementation of the State background check
programs, implementation of the new programs may not actually require much change, if
any, in the providers’ current procedures.

Administrators’ Experiences With Conducting Background Checks
We asked administrators who conducted background checks whether they encountered
any prospective employees who were unwilling to undergo one. Four percent of
administrators had this experience. According to these administrators, prospective
employees may have been unwilling to undergo a background check because their
criminal history included convictions that might disqualify them from employment. The
six administrators who responded affirmatively estimated that between 1 and 5 percent of
prospective employees were unwilling to undergo a background check. In addition, they
estimated that between 1 and 6 percent of prospective employees withdrew their
applications after learning of the background check. While only 4 percent of
administrators encountered prospective employees who were unwilling to undergo a
background check, a much higher percentage held beliefs about the link between
background check requirements and a reduction in the pool of prospective employees.
Twenty-three percent of administrators believed that their organization’s current
background check procedures reduced the pool of prospective employees. A similar
percentage of administrators, 27 percent, believed some prospective employees did not
apply because of their organization’s background check procedures.

Thirty-two percent of administrators commented on the link between background check
requirements and a reduction in the pool of prospective employees. Eleven
administrators expressed their belief that the reduction in the pool occurs because the
background check requirement is commonly known to prospective employees before
applying, which results in individuals with disqualifying convictions not submitting
applications. In support of the background checks, 11 administrators commented that the
elimination of individuals with disqualifying convictions from the workforce pool is
appropriate to protect the safety of their organizations’ clients and staff. Nine
administrators commented that they believe background check requirements have not
reduced their number of prospective employees. These administrators said that few
prospective employees have disqualifying convictions and that they consistently receive a
sufficient number of applications for job vacancies. However, one administrator
commented that the amount of time needed to process background checks reduces the




OEI-07-10-00421     Results of Long-Term-Care Provider Administrator Survey
Page 7 – Marilyn Tavenner


pool of prospective employees. Another stated that a time limit on disqualifying offenses
should be established.

Workforce Data
We asked administrators for the number of (1) job vacancies, (2) applications received
for job vacancies, and (3) filled job vacancies for the period January 1 to May 1, 2011.
Of the 153 respondents to our survey, 122 were able to provide definitive numbers for
each of these three elements. Nine percent of administrators had no job vacancies for the
period; accordingly, they received no applications and did not fill any vacancies.
Demonstrating the variety of sizes of providers in our sample, the number of job
vacancies ranged from 0 to 180, the number of applications received from 0 to 2,422, and
the number of job vacancies filled from 0 to 164. On average, administrators received
approximately six applications for every job vacancy and filled nearly all of their
vacancies. The results of the administrators’ responses are shown in Table 3.
Table 3: Workforce Data

 Element                                      Average         Median

 Job Vacancies                                           11        6

 Applications Received                                   61       24

 Job Vacancies Filled                                    10        4

Source: OIG analysis of administrator responses, 2011.



Availability and Quality of Long-Term-Care Employees
Overall, survey results indicate that 81 percent of administrators had a sufficient pool of
applicants for job vacancies. Administrators who did not have a sufficient pool of
applicants cited prospective employees’ preferences for working in health care settings
other than long-term care, low pay, and lack of desire to work in a rural area. We asked
administrators whether they received applications for job vacancies from qualified
individuals. Nine percent of administrators did not. None of these administrators
believed that their organization’s background check requirement was a reason that
applications from qualified individuals were not received. Instead, they said that
individuals who applied did not have the requisite education, skills, or certification for
the position.

We also asked administrators if there were particular job positions that they had difficulty
filling with qualified individuals. Unrelated to background checks, nearly half of
administrators (45 percent) had difficulty filling certain positions, such as registered
nurse; physical, occupational, and speech therapist; social worker; and certified nurse
aide.




OEI-07-10-00421               Results of Long-Term-Care Provider Administrator Survey
Page 8 – Marilyn Tavenner


CONCLUSION

The survey results provide a baseline of information regarding the effects that conducting
background checks have on the long-term-care workforce in the first 10 States to receive
background check program grants. Nearly all administrators conduct background checks
on prospective employees and current background check procedures do not appear to
greatly reduce the available workforce. When State programs are complete or nearing
completion, we will conduct a second survey to determine whether changes in
background check procedures decrease the workforce pool. We will request the same
workforce data and opinions as in the first survey. We will present the results in the
mandated report entitled Nationwide Program for National and State Background Checks
for Long-Term-Care Employees (OEI-07-10-00420).

CMS may wish to provide the information in this memorandum report to States that
participate in the background check program as well as those States that are considering
participation. This report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this report, please provide
them within 60 days. Please refer to report number OEI-07-10-00421 in all
correspondence.




OEI-07-10-00421     Results of Long-Term-Care Provider Administrator Survey
 Page 9 – Marilyn Tavenner


       APPENDIX A
 Table A-1: Point Estimates and Confidence Intervals
                                                                  Sample      Point           95-Percent
 Estimate
                                                                    Size   Estimate   Confidence Interval
 Current Background Check Procedures

 Administrators who conducted background checks                      153       94.0              86.5–97.5


 Administrators who conducted State criminal history checks          147       81.9              72.1–88.8


 Administrators who conducted FBI criminal history checks            147       40.9              30.5–51.2

 Administrators who conducted other checks (e.g., sex
 offender registries, Office of Inspector General (OIG) List of      147       62.5              52.2–72.8
 Excluded Individuals/Entities)

 Administrators who conducted background checks on all
                                                                     147       94.6              87.2–97.9
 prospective employees

 Administrators who conducted background checks only for
                                                                     147        5.4               2.1–12.8
 certain positions

 Administrators who encountered prospective employees
                                                                     153        4.2               1.5–11.1
 who were unwilling to undergo a background check

 Administrators who believed that their organization’s current
 background check procedures reduce the pool of                      153       23.4              15.6–33.5
 prospective employees

 Administrators who believed that prospective employees do
 not apply because of their organizations’ background check          153       27.0              17.6–36.5
 procedures

 Administrators who offered comments about the link
 between background check requirements and a reduction in            147       32.1              22.2–41.9
 the pool of prospective employees

 Workforce Data
 Average number of job vacancies                                     122       10.9               8.2–13.6

 Average number of applications received                             122       61.0              42.3–79.6

 Average number of job vacancies filled                              122        9.7               7.2–12.2

 Median number of job vacancies                                      122        6.1                3.5–9.8

 Median number of applications received                              122       24.1              14.9–38.9

 Median number of job vacancies filled                               122        3.8                2.5–9.4

 Availability and Quality of Long-Term-Care Employees
 Administrators who had a sufficient pool of qualified
                                                                     153       80.8              71.6–87.5
 applicants for job vacancies

 Administrators who did not receive applications for job
                                                                     153        8.9               4.5–16.8
 vacancies from qualified individuals

 Administrators who had difficulty filling particular job
                                                                     153       45.2              35.0–55.4
 positions with qualified individuals

Source: OIG analysis of administrator responses, 2011.




 OEI-07-10-00421               Results of Long-Term-Care Provider Administrator Survey
